                                           UNITED STATES OF AMERICA
                              FEDERAL LABOR RELATIONS AUTHORITY
                                OFFICE OF THE INSPECTOR GENERAL
                                             WASHINGTON, D.C. 20424-0001




Dated: December 7, 2009


SUBJECT:       Federal Labor Relations Authority Inspector General’s Internal Review of FLRA’s
Checkout Process


METHODOLOGY: This Federal Labor Relations Authority Inspector General Internal Review of
FLRA’s Checkout Process was conducted in accordance with the Inspector General Reform Act of
2008, the Inspector General Act of 1978, as amended, and in compliance with the Counsel of the
Inspector General of Integrity and Efficiency and the Federal Labor Relations Authority Inspector
General’s updated (2009) related policies.


REGULATIONS:


Post Employment Statute
Commission Order 54, Clearance of Employee Accountability
Commission Order 80, Security
Commission Order 91, Employee/Visitor Identification Program
The Federal Records Act


BACKGROUND:

The FLRA Inspector General conducted an internal review of the FLRA’s checkout process for
separating FLRA employees to assess the controls that are established to remove employees from
FLRA’s systems and database, to collect outstanding costs and to obtain FLRA materials and
equipment before the employee leaves.


The Office of Government Ethics provides post employees restrictions relating to former Federal
employees.     The Commission Order 54, Clearance of Employee Accountability provides
requirements for Federal agency managements and separating employees relating to the checkout
process. It requires that all separating Government employees return all property to the issuing office
in good condition before they are provided their final FLRA clearance. The Clearance Statement is a
form of the check out process and requires the departing employee to certify in writing that all
government records, property have been returned and all debts have been settled.


The Post-Employment Statute provides that for 2 years after terminating Government employment, a
former employee should not represent another person or organization before a Federal department,
agency or curt of matters which were pending under their supervision throughout the last year of
Government service. This statute also prohibits all former employees from engaging in activities
relating to trade and treaty negotiations for a period of one year after leaving Government service.
Former senior level employees are also subject to a one year ban prohibiting certain services to
foreign governments and foreign political employees.


The Commission Order 54, Clearance of Employee Accountability, December 3, 2004, provides
guidance to agency managers and separating employees regarding the Checkout Process. This order
states that all government issued property will be returned in good condition before the employee is
granted a final Clearance Checklist statement. A failure to adhere to this policy may result in the
withholding of final check(s) due to the employee. The policy requires separating/retiring employee
to certify in writing that all government property and records have been returned and all debts settled.
The completed form is filed after the final clearance in the employee’s payroll file.


The Employee Clearance Statement is an important part of the check out process because it holds
both the departing employee and office staff accountable. It requires the separating employee to
certify (in writing) that all government property; and records have been returned and all debts and
claims are settled prior to the employee leaving. The FLRA Clearance Checklist includes the
Supervisor/Manager’s Office, the Office of Property Custodian, Information Resources Management,
Budget and Finance Division, Administrative Services Division and Human Resource Division.


FACTS:

The FLRA’s check out process starts with the Office of Human Resources.              When employees
separate from the FLRA, the Human Resource Specialist provides counseling on benefits and makes
sure that all required forms are completed. A clearance form is provided to the separating employee
which requires them to visit their Supervisor/Manager, , Information Resource Management, Budget
and Finance Division and Administrative Services Division (for property management) to obtain
managements signatures on the form. The completed form is then placed in the employee’s



                                                   2
personnel folder. However the FLRA does not have an Office of Property Custodian.


FLRA Executive Branch personnel are required to annually provide Standard Form 279, the Public
Financial Disclosure Report to the Ethics Officer in the Office of the Solicitor.        If separating
employees have any ethic related questions or concerns regarding their retirement, they may contact
the Ethics Officer. This includes the year that they leave. The FLRA Ethics Officer affirmed that
FLRA senior employees who enter the FLRA are given initial training which includes the Ethics
Handbook for Executive Branch Employees which includes retirement information. The FLRA
Ethics Officer also stated that she would start providing this information to senior employees who
were leaving the FLRA.


The FLRA Clearance Checklist is required to be filled out by all separating FLRA employees, signed
by the employee’s Supervisor/Manager, Office of Property Custodian (office equipment), Budget and
Finance Division, Human Resource Division and Administrative Services Division. The Ethics
Officer in the Office of the Solicitor verifies that the separating senior employee has submitted the
annual financial disclosure statement and provides them with post employment counseling
Separating employees are required to provide projects/reports in process and related data, files and
office reference material, final time and attendance, final work report, required leave slips and
performance appraisal to their supervisor/manager before they leave.


Office equipment, tape recorders, calculations, etc. are required to be given to the Office of Property
Custodian. Library material and Westlaw, notebook material and equipment, network access and
software must be turned over to the Office of Information Resource Management. Government
travel cards, travel card balances relating to travel (including advance travel, liquidated and non
liquidated material and advanced and final travel vouchers need to be provided to the Budget and
Finance Division. Telephone credit cards, impact cards, Safety Vest/FLASH/Office Keys, Building
Security Car Key, FLRA issued parking Pass and changed password must be provided to the
Administrative Services Division. FLRA ID cards (given to FLRA employees, contractors, building
management, cleaning staff and security guards), debt (including leave overpayment), and Federal
Personnel Payroll System User ID must be given back to Administrative Services Division which
also conducts an out process briefing and exit interview questionnaire. If an FLRA separating
employee is unable to return to work to complete the Clearance Checklist, Human Resources
provides necessary assistance.




                                                  3
The FLRA does not currently have student volunteers working for them. Student volunteers are not
required to check out when separating from the agency but previously hired student volunteers had
substantial technical skills to exploit the agency’s controls designed to prevent system abuse. It
would be important to revoke access to FLRA’s systems by separating students to limit the Agency’s
exposure to possible cyber abuse or attack.


When an FLRA employee separates and leaves the FLRA, they must contact their
Supervisor/manager; turn in their projects, files and final time and attendance report. Any post
employee of the FLRA may contact the Office of Solicitor’s ethics officials for post employment
ethics issues. Office equipment such as calculators, televisions, scan machines are turned over to the
Administrative Services Division Office Property Custodian Office Property Custodian. The
Information Resource Management Office verifies that computer equipment is returned and network
access is stopped. The Budget and Finance Division needs to receive and verify that travel cards,
travel advance and transit subsidy balances are returned. The Administrative Service Division must
verify the receipt of telephone credit cards, other credit cards, office keys, and parking passes. The
Office of Human Resources provides an exit interview and separation counseling, and obtains the
separating employee’s ID card.


The Administrative Services Division obtains ID cards, credit cards and blackberry cell phones from
all separating FLRA employees and sign out on their clearance checklist. The Administrative
Services Division keeps copies of the FLRA employees in security files for 6-7 years even though no
security check is done on employees when they are leaving. All key numbers for ID cards are kept in
a book in the Administrative Services Division. If a separating FLRA employee does not return the
keys (has not happened so far in this administration), Administrative Services Division automatically
eliminates the accessibility of the key. The FLRA Regional Offices provide back their separating
employees canceled out keys and deactivated cards to the Administrative Services Division. The
Administrative Services Division does not provide new FLRA employees with checking out
procedures.


The Information Resource Management System has implemented policy of reallocation of employee
data in accordance with the Federal Record Act which requires Federal agencies to maintain
electronic data for 180 days after the departure of an FLRA employee to ensure deactivation. The
also plan to migrate departed user data to a compact disk after the user leaves the FLRA and store the
data for 180 days in a locked cabinet.




                                                  4
The Budget and Finance Division requires FLRA employees who are separating from the agency to
provide back their smart card or pay the FLRA the remaining fees on their card when they leave.
FLRA employees are also required to pay all of their outstanding travel debts before the separate
from the FLRA. If an individual retires from a Federal Agency and has not paid back all of the travel
fees, Human Resources are notified as well as the Department of Interior National Business
Center.OMB will take the related money out of the first retirement pay. If an individual leaves the
FLRA to go to work for another Federal Agency, they will not be allowed to start until they pay their
owed travel fees.


The FLRA does not currently have student volunteers working for the FLRA. Student volunteers are
not required to check out when separating from the agency but previously hired student volunteers
had substantial technical skills to exploit the agency’s controls designed to prevent system abuse. It
would be important to revoke access to FLRA’s systems by separating students to limit the FLRA’s
exposure to possible cyber abuse or attacks.


When an FLRA employee separates and leaves the FLRA, the Information Technology Division
recapitalizes the individual’s computer hardware, sanitizes it and reinstalls the operating system as
well as its applications. After they leave, depending on the timelines of reporting their departure to
IRMD, the user account is locked out. The retention of data required by the Federal Records Act for
the deactivation, retention and reallocation of user data is retained for l80 days after the FLRA
employee’s separation from the FLRA. When the individual leaves the FLRA, upon notification,
their account is lockout, their electronic mail is emerged out of the FLRA system into a compact disk
and this is stored in a locked cabinet for l80 days.


During FY 2009, the following FLRA Employees resigned, retired, or terminated from the FLRA.
This internal review did not indicate any checkout process problem with any of these former
employees. So far in FY 2010, only 1 FLRA employee has retired. No additional separations have
yet occurred.




                                                  5
CONCLUSION:

 This internal review indicated that the FLRA’s separating/retiring employees Checkout Process is
being handled properly and there is no free access to the FLRA once the employee leaves. The only
problem identified was that some FLRA employees are unaware of the checkout process
requirements even though they are notified of these requirements by Human Resources ( and Office
of Solicitor for senior executives) when they leave/retire from the FLRA.


Finding:
Not all FLRA employees, especially new employees, are aware of the FLRA Checkout Process
for separating/retiring FLRA employees.


Recommendation:


In order to ensure that all FLRA employees are aware of the FLRA’s Checkout Process, it should be
mentioned during the new employee’s administrative orientation and placed on the FLRA internet
for access to all FLRA employees.




                                                7




                                                6
